U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




               BUREAU OF THE CENSUS

             Selected Aspects of Census 2000
           Accuracy and Coverage Evaluation
             Need Improvements Before 2010




      Final Inspection Report No. IG-14226-2/March 2002




                            PUBLIC
                            RELEASE



          Office of Audits and System Evaluations

                                                 TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i 


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1 


OBJECTIVES, SCOPE, AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2 


BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3 


FINDINGS AND CONCLUSIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6 


I.        The A.C.E. P-Sample May Have Missed People 

          Residing in Retirements Homes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6 


II.	      A.C.E. Requirements Process Should Be Improved . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8 


          A. 	      A.C.E. and Census Joint Requirements Need to Be Better Planned . . . . . . . . . . . 9 

          B.	       Computer Matching Requirements Should Be More Completely Specified . . . 10 

          C. 	      Laptop System Provided Minimal Benefit for PFU Users . . . . . . . . . . . . . . . . . 12 


III.	     Use of Automated Tools Facilitated Person Matching, 

          but Better Testing, Documentation, and Quality Assurance Needed . . . . . . . . . . . . . . . 13 


          A. 	      Computer Matcher Software Tested but Results Not Documented . . . . . . . . . . 13 

          B.	       Output Not Adequately Reviewed After Changes to Forms Printing Software . 14


IV. PFU Quality Assurance Program Needs to Be Automated . . . . . . . . . . . . . . . . . . . . . . . . . 15 


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 


APPENDIX A. Terms and Acronyms

APPENDIX B. Bureau Response

                                   EXECUTIVE SUMMARY


On December 28, 2000, the Census Bureau released the nation’s population count: 281,421,906.
This number resulted from the information collected when approximately 77 million households
returned their census forms and approximately 42 million households were subsequently visited
by enumerators to collect census information. Census data is used for many critical purposes
including congressional apportionment, state redistricting, and the allocation of federal funds.

During a decennial census, the Census Bureau attempts to count and gather information about
every resident in the country. However, in any census some enumerations that should have been
excluded are included, and some portion of the population that should have been included is
missed. The first source of errors leads to an overcount; the second, to an undercount. To
measure these coverage errors, the Census Bureau conducted a separate and independent quality
check survey known as the Accuracy and Coverage Evaluation (A.C.E.). A.C.E. uses a statistical
methodology based on obtaining an independent sample of the population. The A.C.E.
population sample is matched with the census population to identify persons missed or
incorrectly counted in the census. Correctly matching A.C.E. person records with census person
records is important because even small mistakes can affect the bureau’s ability to measure the
over and undercount precisely.

The issue of whether statistical sampling could be used to adjust the census was brought before
the United States Supreme Court. In January 1999, the Supreme Court ruled that sampling could
not be used for congressional apportionment purposes but was silent on its use for state
redistricting and the allocation of federal funds.

The deadline for providing states with redistricting data was April 1, 2001. On March 1, 2001,
the Acting Director of the Census Bureau, in consultation with the bureau’s Executive Steering
Committee for A.C.E. Policy, recommended using the unadjusted counts rather than the
statistically adjusted counts for redistricting. The primary reason given by the bureau for arriving
at this conclusion was the disparity in population estimates from two different sources: the
recently completed A.C.E. and the bureau’s demographic benchmark analysis. Since the
decision on redistricting, the bureau has analyzed this disparity and has further recommended
using the unadjusted counts for allocating federal funds as well.

While A.C.E. involved many different operations, our review focused on two of them, person
computer matching and person follow-up (PFU). Person computer matching, which started
October 5, 2000, and completed on October 25, 2000, and PFU, which started on October 19,
2000, and completed on November 21, 2000, matched the majority of individual census and
A.C.E. person records. Computer matching involves using a software program that, with the aid


                                                 i
of human experts, assigns a match status to the records. PFU is a field operation that gathers
additional information for persons assigned a status of non-match or possible match.

The OIG conducted this review to determine how well systems supporting person computer
matching and PFU field operations worked and to assess the efficiency and effectiveness of these
operations. The bureau is evaluating the 2000 decennial processes to make future improvements.
Thus, the lessons learned from the 2000 A.C.E. are important inputs to planning the next
decennial. Our review reached the following conclusions:

•	     The A.C.E. Independent Sample May Have Omitted Residents of Retirement
       Homes. A.C.E. design included people living in housing units, such as houses,
       apartments, or mobile homes, and excluded people living in group quarters, such as
       nursing homes, dormitories, and prisons. However, for the elderly, A.C.E. and census
       definitions of group quarters versus housing units differed which, we believe, may have
       resulted in the A.C.E. not measuring census coverage of retirement home residents. This
       difference came to our attention in discussions with PFU field staff who identified two
       retirement homes as examples of census housing units that were excluded from the P-
       sample. In addition, we found a third example while reviewing some PFU forms.
       Because the A.C.E. may have systemically failed to measure census coverage of the
       elderly population living in retirement homes, we believe that the bureau should review
       A.C.E. data to determine whether these omissions were systemic and, if so, what impact
       this would have on estimates of the elderly population. (See page 6.)

•	     A.C.E. Requirements Process Should Be Improved. Many systems supporting various
       headquarters and field operations were defined and developed for A.C.E. Although the
       bureau met the overall schedule for this complex program, we did find some areas where
       improvements could be made. Specifically, A.C.E. requirements relying on census input
       need more planning among divisions, computer matching requirements should be more
       clearly defined and documented, and laptop systems provided to field supervisors should
       better meet user needs. To address these issues, the bureau should ensure that A.C.E.
       requirements are carefully planned, defined, and documented, and that they support user
       needs. (See page 8.)

•	     Use of Automated Tools Facilitated Person Computer Matching, but Better Testing,
       Documentation, and Quality Assurance Needed. The bureau’s use of the computer
       matcher, a trusted, much-used software tool, and a questionnaire printing system enhanced
       the efficiency of bureau matching and production of PFU questionnaires. We could not
       assess the adequacy of the testing of the computer matcher as used for A.C.E. person
       matching because the bureau did not document the test cases and results. Although the
       computer matcher was not newly developed software, it was being applied differently and

                                                 ii
       the results of its testing should have been documented. With respect to the questionnaire
       printing system used for PFU, errors occurred in production that we believe resulted from
       not sufficiently reviewing the accuracy of printed questionnaire data after last minute
       software changes. To better ensure data accuracy and completeness, the bureau should
       document testing and perform thorough quality assurance. (See page 13.)

•	     PFU Quality Assurance Program Needs to Be Automated. The bureau conducted
       quality assurance on selected PFU questionnaires to detect interviewing problems,
       including data falsification. We commend the bureau for adding a quality assurance
       process for PFU in response to our recommendation made during the decennial dress
       rehearsal. However, according to personnel interviewed at several regional offices,
       tracking the quality assurance workload was paper- and labor-intensive and the process
       could be better planned. Bureau officials told us that the PFU operation was intended to be
       conducted using a computer-assisted person interview system similar to the system used in
       the person interview operation, but the bureau decided during dress rehearsal that not
       enough resources were available to develop and appropriately test such a system for PFU.
       As a result, the bureau made the decision to use the questionnaire printing system instead.
       For 2010, we believe that quality assurance should be integrated as part of an automated
       PFU operation. (See page 14.)

We recommend that the Acting Director of the Census Bureau direct senior management
responsible for evaluating the A.C.E. and planning the quality check activities of the 2010 census
to take the necessary actions to:

1. 	   Evaluate whether residents of retirement homes were systemically omitted from the A.C.E.
       independent sample and if so, what impact this had on estimates of the elderly population.

2. 	   Ensure that definitions for identifying housing units, special places, and group quarters, as
       well as other definitions as appropriate, are consistent for both the census and the A.C.E.

3. 	   Document and clearly communicate requirements when planning systems that have to meet
       requirements of both the census and the A.C.E.

4.	    Ensure that computer matching requirements are fully developed and documented.

5. 	   Ensure that computer systems are developed and modified in accordance with rigorous,
       documented system and software engineering standards that, at a minimum, address
       requirements specification, design and development, testing, documentation, and quality
       assurance.



                                                 iii
6.     Integrate the PFU quality assurance process as part of an automated PFU operation to
       ensure efficiency.



In responding to our draft report, the bureau generally agreed with all but the first recommendation.
The bureau stated that all A.C.E. evaluations requiring field work had been completed and that
additional evaluation work to satisfy this recommendation would be difficult because such housing
units were not characterized as being retirement homes in the census data. Furthermore, two years
after Census Day, residents may no longer live in the housing units in question. The bureau also
stated that it is considering including group quarters in the coverage measurement survey for
Census 2010, which should reduce the potential for error caused by confusing housing units with
group quarters. We still maintain that not knowing how much missed coverage of retirement
homes impacted this population’s net undercount calculation diminishes confidence in the A.C.E.
results for this population group. We believe that analyzing the results of matching the P-sample
and E-sample to identify high concentrations of elderly within A.C.E. clusters that were not
matched in the P-sample would indicate whether this omission was systemic. If the omission is
found to be systemic, then the bureau could estimate the impact such an omission would have on
estimates of populations of the elderly. The bureau agreed with the second recommendation that
the definitions for housing units, special places, and group quarters should be consistent for A.C.E.
and census.

The bureau, although agreeing with the third recommendation, also stated that a very tight schedule
after the Supreme Court’s decision on the use of sampling for producing the apportionment counts
made it difficult to document and communicate requirements for systems supporting both the
census and the A.C.E. While we recognize that planning was delayed because of the sampling
decision, the examples we cited were clearly more of a problem with documenting and
communicating all known requirements not impacted by the sampling decision. Also, while
agreeing that, in general, the bureau needs to document requirements more completely, the bureau
claims that the automated matching requirements, which the fourth recommendation addressed,
were fully developed and understood by those who conducted this operation. We do not believe
that was the case, as the criteria for including records as possible matches were ambiguous.

The bureau’s response to our fifth recommendation, to ensure that systems are modified in
accordance with rigorous documented system and software engineering standards, referred to its
response for the third and fourth recommendation and, therefore, was not specific to the intent of
this recommendation. We are asking the bureau to do more than improve requirements definition;


                                                 iv
as our findings pointed out and other reviews have found, the bureau needs to improve all phases
of its system and software engineering processes, not just requirements definition. Finally, with
regard to the sixth recommendation, we recommend that the quality assurance process be
integrated as part of a fully automated PFU operation for the 2010 census. The bureau agreed that
the PFU quality assurance process is important and stated that it will be studied during the planning
for the next decennial.

The bureau’s response letter is found in Appendix B.




                                                 v
                                        INTRODUCTION


The Constitution mandates that a census of the nation’s population be taken every 10 years for the
purpose of congressional apportionment. Data from the decennial census provides official,
uniform information on the social, demographic, and economic characteristics of the nation’s
population. During a decennial census, the Census Bureau attempts to count and gather
information for every resident in the country. However, in any decennial census, some
enumerations that should have been excluded are included, and some portion of the population that
should have been included is missed. For 2000, the bureau measured coverage and planned to
adjust the census counts through the Accuracy and Coverage Evaluation (A.C.E.).

A.C.E. uses a statistical methodology based on obtaining an independent sample of the population,
which is then matched with the census records to try to identify persons missed or erroneously
counted. The A.C.E. methodology uses a process called dual system estimation to estimate the net
undercount of various demographic subgroups of the population (called post-strata). These
estimates, if considered to be sufficiently reliable, can then be used to adjust the census counts
accordingly.

The issue of whether statistical sampling could be used to adjust the census was brought before the
United States Supreme Court. In January 1999, the Supreme Court ruled that sampling could not
be used for congressional apportionment purposes but was silent on the issues of state redistricting
and the allocation of federal funds.

The deadline for providing states with redistricting data was April 1, 2001. On March 1, 2001, the
Acting Director of the Census Bureau, in consultation with the bureau’s Executive Steering
Committee for A.C.E. Policy, recommended using the unadjusted counts rather than the
statistically adjusted counts for redistricting. The primary reason given by the bureau for arriving
at this conclusion was the disparity in population estimates from two different sources: the recently
completed A.C.E. and the bureau’s demographic benchmark analysis. Since the decision on
redistricting, the bureau has analyzed this disparity and has further recommended using the
unadjusted counts for allocating federal funds.

The Office of Inspector General has completed a review of person computer matching and person
follow-up (PFU), two operations that were integral to matching A.C.E. and census person records.
Correctly matching A.C.E. persons with census persons is important because matching errors in
even a small percentage of cases can affect the precision of the undercount or overcount estimates.
In addition, the bureau is evaluating the 2000 decennial processes to make future improvements.
Thus, the lessons learned from the 2000 A.C.E. are important inputs to planning the next
decennial.

                                                  1
                       OBJECTIVES, SCOPE, AND METHODOLOGY


The purpose of this evaluation was to assess the person computer matching and PFU operations.
Person computer matching, which started October 5, 2000, and was completed on October 25,
2000, and PFU, which was started on October 19, 2000, and completed on November 21, 2000,
were critical in matching the majority of A.C.E. and census person records. For computer
matching, we assessed how the bureau ensured that matching software performed to an expected
level of accuracy. For the PFU operation, we assessed its efficiency and effectiveness, and sought
to identify any problems that may have affected the quality of the A.C.E.

Our methodology for reviewing software primarily involved reviewing bureau requirements and
testing documentation and interviewing the responsible bureau officials. Specifically, to assess
whether the requirements specification was appropriate, sufficiently defined, and clearly
communicated, we obtained an understanding of matching requirements by attending bureau
matching training at the National Processing Center (NPC) in Jeffersonville, Indiana and observing
computer matching at bureau headquarters in Suitland, Md. We also reviewed specifications to
assess whether they (1) were written in a clear, unambiguous fashion and followed a software
engineering standard; (2) defined an acceptable threshold for errors; and (3) appropriately
addressed concerns raised by bureau evaluations, including the ability to match inaccurate,
incomplete, and conflicting data.

To determine if a comprehensive set of test cases was used to test the requirements, we determined
whether the bureau had test plans, test cases, and test results and whether the testing addressed
diverse response data to ensure that the matching software could reliably handle a wide array of
potential input data and that the accepted error threshold was met.

We also evaluated the PFU operation in the field at selected locations. We reviewed policies and
procedures and examined selected PFU questionnaires and other relevant documentation. We also
spoke with NPC staff about the PFU operation. In addition, we observed PFU interviews in
Philadelphia, Pennsylvania, Winchester, Virginia, and Las Vegas, Nevada, and we interviewed
field staff, including interviewers and field supervisors, at these locations concerning the efficiency
and effectiveness of the PFU operation. Finally, we interviewed bureau headquarter officials in
Suitland, Maryland and regional personnel in Seattle, Denver, Charlotte, and Philadelphia.

This evaluation was conducted in accordance with the Inspector General Act of 1978, as amended,
and the Quality Standards for Inspections, March 1993, issued by the President’s Council on
Integrity and Efficiency.



                                                  2
                                               BACKGROUND


Many Census Bureau offices were involved in A.C.E. The Decennial Statistical Studies Division
(DSSD) was responsible for design and management of all A.C.E. operations. These included
questionnaire design, development of requirement specifications for matching software and
operations, software testing and implementation, and designing and monitoring quality control of
matching operations. DSSD also worked with the field and other offices in testing computer-
assisted person interview instruments. Twelve Field Division A.C.E. regional offices were
responsible for staffing, training, and conducting the PFU operation. Field Division headquarters
provided oversight to the regional offices and developed training materials, budget and schedule
estimates, and progress reports. NPC conducted clerical matching operations and provided the
forms and maps for conducting PFU. The Technologies Management Office designed and
installed system hardware and application software, created management reporting systems, and
provided laptops to the field. The Decennial Systems and Contracts Management Office
(DSCMO) performed headquarters data processing for the decennial and was responsible for
processing census enumeration data. Other offices have been involved in conducting evaluations
and providing overall management support.1

The bureau conducted A.C.E. on a sample of about 315,000 housing units in various areas of the
fifty states, the District of Columbia, and Puerto Rico. The sample consisted of block clusters,2
which are geographic areas that on average contained about 30 housing units. The bureau
selected sample block clusters from areas that would represent the nation as a whole and
considered such characteristics as size of block cluster, American Indian Reservation, type of
enumeration area, and race/ethnicity composition.3 Once the block clusters were selected, the
bureau developed an address list of housing units in selected clusters independent of the census
address listing activity. This was followed by a housing unit matching operation between the
A.C.E. and census listing with a follow-up operation in the field to resolve discrepancies. The
resulting A.C.E. address list was used to conduct computer-assisted person interviews, on the
telephone or in person, at each known housing unit within the sample. Interviewers asked
questions to determine whether residents should have been counted at the sample address on
Census Day or whether the residents counted on Census Day had since moved. Person records


        1
          DSSD Census 2000 Procedures and Operations Memorandum Series, Chapter S-TL-06, October 18, 1999,
Draft 2 and Census 2000 A.C.E. Person Followup - Program Master Plan, May 22, 2000.
        2
          Block clusters contain one or more census blocks, which are small geographic areas bounded by physical
features and jurisdictional boundaries and are used to organize data collection.
        3
         Accuracy and Coverage Evaluation: The Design Document, DSSD Census 2000 Procedures and
Operations Memorandum Series, Chapter S-DT-1, January 11, 2000.

                                                        3
collected during A.C.E. are referred to as the P-sample. The A.C.E. also used an E-sample that
included persons enumerated by the census in housing units from the A.C.E. block clusters.

To obtain the data used to estimate the net undercount for each post-strata, the bureau compared
the P-sample records to the census data for households in the same vicinity. Census person
records needed for this comparison were selected from the Hundred-percent Census Unedited
File (HCUF). Generally speaking, the primary objective of this process was to determine for
each A.C.E. block cluster if each record matched a record in the other sample.

The first phase of this person record comparison is computer matching and employs the SRD4
Record Linkage System. The version used for A.C.E. was similar to the one used in the 1990
decennial. To use the SRD Record Linkage System, bureau officials had to designate which
fields within each A.C.E. and census record pair were to be compared, the method by which they
would be compared, and the scores that would be assigned based on the level of agreement or
disagreement between data contained in each field. Fields compared included first name, last
name, middle initial, month of birth, date of birth, age, gender, and unit designation. Before the
records were submitted to the matcher, first names, street names and suffixes, and apartment
subunit designations were standardized. For example, “First Street” was converted to “1st St,”
and “apartment A” was converted to “apartment 1.” Other data, such as first name, race, and
relationship, was edited into standard designations as well.

As census data became available, the bureau divided 702,465 P-sample records and the census
person records into 22 match groups consisting of an average of about 31,930 P-sample person
records. Each match group was submitted to the matcher separately, and matching occurred only
for person records within the same block cluster. The person records were matched in two
passes. For the first pass, only persons whose surname started with the same character were
compared; this restriction was lifted for the second pass, where records unmatched after the first
pass were compared. Certain fields, such as date of birth and middle initial, had to match exactly
to add their agreement weights to the matching score. Names were compared using a “string
comparator,” which allows for typographical and scanning errors while scoring according to the
degree to which the data agreed. The SRD Record Linkage System paired each record from the
P-sample with a census person record and sorted the records in descending order with respect to
score. For example, in the first pass scores ranged from 13.0566 (indicating a definite match) to
�3.8929 (indicating a definite non-match).

Use of the SRD Record Linkage System also involved expert human intervention to delineate
which linked records were matches (linked records that identified the same person with a high


        4
         SRD stands for the bureau’s Statistical Research Division, which created the computer matcher. See
William E. Winkler, Advanced Methods for Record Linkage, Bureau of the Census, September 1994.

                                                        4
degree of certainty); possible matches (linked records that identified the same person with less
certainty); and non-matches (linked records that were clearly not the same person and needed to
be unlinked). After the first pass, the expert matcher running the job would inspect the linked
records. The expert supplied a high cutoff, ranging from a score of 3.151 to 2.618, to the
computer for linked records that were matches. The expert supplied a lower cutoff, ranging from
a score of 1.393 to .6472, for linked records that were possible matches. Any records with scores
below the lower cutoff would be unlinked and matched again in the second pass. After the
second pass produced the file of linked records, the expert matcher would repeat the procedure,
again supplying the computer a cutoff score for matches and a cutoff score for possible matches.
When the second pass of computer matching was completed, the match group results were sent
to NPC’s clerical matching operation. Computer matching averaged match rates of 69.6 percent
for person records coded as matches, 9.9 percent as possible matches, and 19.9 percent as not
matched.5

Clerical matchers reviewed possible matches, judging whether to change them to matches or
non-matches. Clerical matchers also reviewed unmatched P-sample and E-sample records,
attempting to find more matches or possible matches. The records that the clerical matchers
were unable to match with certainty and E-sample records that remained unmatched were sent to
the PFU operation.

For PFU, NPC printed a questionnaire for each household with at least one person requiring
follow-up. Each questionnaire was shipped to one of the 12 A.C.E. regional offices around the
country. The regions prepared the questionnaires and assigned them to field interviewers, who
completed each questionnaire at the address printed on it. Once completed, questionnaires were
checked for accuracy and completeness by a field supervisor and then were returned to the
regional office. Field supervisors were assigned laptop systems to manage the PFU workload.

Upon receipt, the regional office performed an edit of each questionnaire to ensure that all entries
were legible, that the skip pattern6 had been followed, and that the field supervisor had initialed
the form. The edit also determined if the PFU case needed a quality assurance reinterview. The
questionnaires were then shipped to NPC, where they were reviewed by clerical matchers. With
the new information obtained during PFU, the clerical matchers assigned final codes to the non-
matched P- and E-sample persons to indicate if they should have been counted within the block
cluster on census day.

         5
           A small percentage of the person records, .6 percent, were not submitted to matching because they lacked
sufficient information. The bureau used the numbers of these excluded records in calculating the matching
percentages, which effectively decreased them.
         6
         Skip patterns are directions printed on the questionnaire that tell interviewers which questions to ask next
depending on the interviewee’s previous answer.

                                                          5
                              FINDINGS AND CONCLUSIONS


I.     The A.C.E. P-Sample May Have Missed People Residing in Retirements Homes

The A.C.E. P-sample may have systemically omitted residents of retirement homes. We believe
these people were excluded because the A.C.E. staff responsible for completing the independent
A.C.E. housing unit list may have excluded retirement homes thinking that they did not meet the
definition of a housing unit. Because this problem started with the housing unit list used to
create the P-sample, we are concerned that A.C.E. may have systemically missed people residing
in retirement homes, which could have contributed to errors in estimating the net undercount.
We believe that the bureau should assess whether retirement homes were systemically omitted
and if so, determine the impact of missing residents of these homes.

By design, A.C.E. did not include group quarters on the independent housing list used to
construct the P-sample. Group quarters were defined as special places where occupants share
certain residential facilities, such as a cafeteria, and included dormitories, nursing homes,
orphanages, prisons, and halfway houses. Instead, the A.C.E. P-sample included person data
only for people living in a housing unit, which was defined as a house, an apartment, a group of
rooms, or a single room whose occupants live separately from other persons and have direct
access from the outside of the building or through a common or public hall.

We found that A.C.E. and census guidance for identifying group quarters for the elderly differed
and may have led to the exclusion of elderly people residing in retirement homes from the
P-sample. A.C.E. address listing guidance instructed field staff not to include “homes for the
aged” on the address list because they were considered group quarters. However, the census
definition of group quarters used the term “nursing homes or convalescent homes” rather than the
term “homes for the aged,” making it confusing about how to treat retirement homes. According
to bureau officials, any retirement home fitting the definition of a housing unit is not a group
quarter and should have been included in the address listing and person data collection activities
for the A.C.E.

E-sample records that did not match P-sample records were sent to PFU to be confirmed as
correctly enumerated by the census. We discovered the problem with retirement homes in our
discussions with PFU field staff members in different parts of the country responsible for
conducting these interviews who told us that they were surprised to be conducting interviews in
entire retirement homes that they believed were group quarters that should not have been included
in the E-sample. The staff identified two retirement homes where this occurred, and we identified
another during our review of some of the PFU forms. Upon reviewing the addresses of these

                                                6
housing units using A.C.E. and census data, we confirmed that the A.C.E. P-sample did not
include them or the 188 people residing in them. These persons were coded as correctly
enumerated, correctly counted by the census, and omitted from the P-sample. Because this
problem can be traced back to how a P-sample housing unit was defined, we believe that this
problem could be systemic and are concerned about the impact on estimating the net undercount
because the ratio of missed people in this group of the population would not be measured.

We discussed the correctly enumerated status for the people living at these housing units with
bureau officials who provided two explanations. One, A.C.E. listers may have overlooked the
housing units, or, two, census could have misclassified the address as a housing unit when it really
should have been a group quarter. However, we believe that the P-sample missed these housing
units because the A.C.E. group quarter definition, as related to housing for the elderly, was
broader than the census definition. Thus, the A.C.E. listers considered the three retirement homes
as group quarters, not housing units, and therefore residents were not included in the
P-sample.

We also discussed missed P-sample coverage by A.C.E. and the discrepancy in the group quarter
definition with members of the Executive Steering Committee on A.C.E. Policy.7 They stated that
it is not always clear as to whether an elderly residential living situation is a group quarter, and
they agree that the Census and A.C.E. definitions for special places and group quarters need to be
consistent for 2010. Furthermore, bureau officials contend that A.C.E. P-sample coverage does
not have to be perfect, just independent, and dual system estimation works even if some of the P-
sample is missed. We understand that the P-sample does not need to be perfect; however, we are
concerned that the P-sample omissions we have identified are specific to a certain group of people
— the elderly population living in retirement homes. We believe the bureau should evaluate how
extensively this population was omitted from the P-sample and the extent to which the coverage
measured for this group would change as calculated by dual system estimation. With an
increasingly aging population, we believe this analysis is necessary.

The bureau is evaluating the quality of the A.C.E. to improve it for the future. As part of its work,
it is evaluating whether definitional problems led to group quarter classification errors. However,
this evaluation will not help determine for this decennial if elderly citizens residing in retirement
homes were systemically excluded from the P-sample. Without such an assessment, the Bureau
cannot determine the validity of its estimates of populations of the elderly.



        7
          The Steering Committee, which consisted of 12 senior career bureau officials, was responsible for
reviewing census and A.C.E. data and preparing a report in February, 2001, for the bureau director recommending
whether the adjusted or unadjusted census data should be used for redistricting.

                                                        7
We discussed conducting additional evaluation work with the bureau. However, bureau staff do
not believe that more evaluation work is necessary for several reasons. First, more evaluation
work would be difficult because the A.C.E. data is not characterized in a manner that would allow
them to identify retirement homes. Second, they do not believe they missed all of the population
living in retirement homes because various A.C.E. listers may have interpreted the definition
differently. Finally, the bureau contends that the post-strata for the population that would be
living in retirement homes was “50 years and older” and that missing some of the population in
retirement homes would not be sufficient to have an impact on the estimation of this post-strata.
However, we believe that the bureau should review census person records coded as correct
enumerations (i.e., correctly enumerated in the census but not in the P-sample); assess whether
these correct enumerations included high concentrations of elderly in certain clusters, thus
possibly indicating missed retirement homes; and explain what impact this has on the estimation.
More importantly, the lessons learned here will be useful as the bureau plans for 2010.

II.     A.C.E. Requirements Process Should Be Improved

Many computer systems supporting various headquarters and field operations were defined and
developed for A.C.E. We found some areas where improvements could be made to ensure that all
requirements were appropriate, sufficiently defined, and clearly communicated. The bureau has
standards to aid in the development of software requirements; however, we found that they were
not always used. Instead, bureau staff responsible for generating requirements specifications
sometimes relied on dress rehearsal specifications that did not completely define all requirements.
For the PFU laptop system, the bureau relied on procedures that had worked for other surveys and
censuses. We believe that requirements definition suffered because not enough time was spent on
planning activities. The problems cited in this report should not detract from the successes that
the bureau had in managing and implementing many system developments and enhancements,
sometimes in very short time frames. However, as discussed in other OIG reports issued for this
decennial, in the future the bureau would benefit from using a well-managed software
development process that allows sufficient time for planning, developing, testing, and
implementing all of its systems. Our recommendations in those reports hold true for A.C.E.8




        8
         A Better Strategy Is Needed for Managing the Nation’s Master Address File, OSE-12065, September
2000; PAMS/ADAMS Should Provide Adequate Support for the Decennial Census, but Software Practices Need
Improvement, OSE-11684, March 2000; Improvements Needed in Multiple Response Resolution to Ensure Accurate,
Timely Processing for the 2000 Decennial Census, OSE-10711, September 1999; and Headquarters Information
Processing Systems for the 2000 Decennial Census Require Technical and Management Plans and Procedures,
OSE-10034, November 1997.

                                                     8
A.      A.C.E. and Census Joint Requirements Need to Be Better Planned

Over a year before the PFU operation was to start, the Field Division requested that Decennial
Statistical Studies Division (DSSD) prioritize the receipt of each regional office’s PFU workload
prior to the respective matching operations. This prioritization would allow the regions to
influence the order in which the work would arrive, so they could plan staffing and training, and
complete A.C.E on schedule.9 Bureau officials told us that they ranked each block cluster based
on weather and other operational concerns. Higher-ranked clusters’ PFU questionnaires were to
be delivered to the regional office first. DSSD agreed and used the ranking to create a national list
of 11,802 prioritized block clusters. DSSD planned to follow the national priority list based on
the availability of the census data. While the bureau was able to deliver all PFU questionnaires on
schedule, the order in which they were delivered had significant deviations from the priority
ranking. For example, California had 3 block clusters ranked within the top 50 of the 11,802
block clusters but was one of the last states to receive its PFU questionnaires.

DSSD staff responsible for implementing the requirement explained that they did not have a
complete specification from DSCMO which should have defined and documented how the census
data would be created. Because census data availability drove when person matching would
occur, the extent to which the priority requirement could be met relied on how census data would
be delivered. Absent the complete specification, DSSD assumed that census block cluster data
would be available as soon as it was aggregated by local census office, as it was during the 1998
dress rehearsal.10 DSSD officials furthered explained that, although they completed the
specification for prioritizing field PFU work on July 14, 1999, they did not learn until about a year
later that the headquarters data processing operation would release the data when each state was
ready, rather than by local census office.

Headquarters field staff stated that, despite the confusion, the PFU workload was completed on
schedule for several reasons: the weather was mild, the workload was almost a third less than
planned, and extra staff were used to cope with the change in plans. Once all involved offices
were aware of the requirement to obtain the census data in a priority order, DSCMO, DSSD, and
the Field Division worked to correct the problem. The Field Division created a new priority list
by state, and DSSD and DSCMO worked to meet this requirement by accelerating high priority
states when possible. Although the work was completed on schedule, some field staff stated their
hope that block cluster prioritization would be workable in the future. We believe that meeting

        9
         A.C.E. Regional Office Memorandum No. 99-05 and DSSD Census 2000 Procedures and Operations
Memorandum Series Chapter S-FT-02, Accuracy and Coverage Evaluation Housing Unit Follow-up and Person
Follow-up Prioritization Specifications, July 14, 1999.
        10
          In the dress rehearsal, DSCMO delivered enumeration data for the DSSD coverage measurement
processing operation by local census office because only three local census offices were involved.

                                                      9
such a requirement would improve efficiency and reduce the risk of schedule and cost overruns to
the PFU operation.

When planning systems that have to meet the requirements of both the census and the A.C.E.,
completed specifications would ensure that all requirements are documented and better
communicated. In this case, having documented requirements well before the start of both
operations would have facilitated better planning to meet the Field Division’s needs and resulted
in a more efficient PFU operation.

B.     Computer Matching Requirements Should Be More Completely Specified

By most measures, computer matching went well. It was completed very close to schedule, the
match rate of 69.6 percent was higher than expected, and clerical matchers reviewing the results
stated that they were highly accurate. Nevertheless, we found that the requirement for
determining the lower cutoff score for possible matches could be better defined, and the
requirements specification should have been more completely documented. In the future, the
bureau may not have key staff members who supported Census 2000 and would therefore benefit
from clear and complete requirements specifications.

The person computer matching phase involved linking person records from the E-sample to
person records from the P-sample, assigning match codes to each linked pair, and submitting these
results to clerical review. The goal of computer matching was to label linked records that
matched with a high degree of certainty as matches and those that matched with a lower degree of
certainty as possible matches. To do this, the SRD Record Linkage System assigned a match
score ranging from 13.0566 (indicating a definite match) to -3.8929 (indicating a definite non-
match) to each linked pair.

In our observation of the expert matcher review of one match group, we found that the way that
the possible match cutoff score was chosen was not clear. Also, our assessment of the clerical
match process led us to believe that it would be easier to complete the matching process if
possible matches remained linked, at least until clerical matchers had a chance to review them.
However, DSSD staff believed that NPC managers indicated that linking too many records that
were obviously not matches could cause problems for clerical staff, who would have to spend
time unlinking these records and thus might lose confidence in the computer matcher results. One
possible approach may be to provide the clerical matchers with the linked records, noting those
that fall below the lower cutoff score, and not requiring them to unlink them. While the expert
matchers were clear about where to mark matches with a high degree of certainty, they were less
definitive about where to delineate the possible matches. For example, in the match group we
observed, when we requested that the possible match cutoff be lowered, the expert matcher
complied and stated that this cutoff point was flexible.


                                                10

We reviewed the requirements specification for person computer matching to assess its
completeness and to ascertain what the requirements were for designating possible matches. We
found that the requirements specification defined such items as address and person
standardization, insufficient or incomplete information for matching, match codes to be assigned
to each record, and what should be included in the P-sample and E-sample match universe.
However, the specification did not designate which fields were to be compared, how they should
be compared, and what scores should be assigned based on the level of agreement of the data such
as cases with conflicting data. Nor did the specification define cutoff scores for delineating
matches or possible matches or records that were to be unlinked prior to clerical matching. In
addition, the specification did not indicate a target level of accuracy for matches or possible
matches, even though the expert matcher indicated that the goal was to achieve a 99.5-percent
level of accuracy for matches.

DSSD managers decided that the computer specification was to include only the information on
how the input to be used in the computer matcher would be handled and standardized, and not
provide a description of the computer matcher software. Bureau staff responsible for writing the
specification further explained that it was based on the one for the dress rehearsal, that they relied
on the judgment of the expert matchers, and that the specification would be updated to reflect the
experience gained from the matching operation.

We believe that the specification should be complete, unambiguous, and present requirements in a
fashion that can be tested. In addition, while bureau officials stated that they planned to refine
requirements after the operation was completed, it remains unclear whether the data will be
available and whether the people with the appropriate expertise will be involved in the process.
For example, when we went back to obtain data about the consistency of matches by match group,
we were told that new software would be required to process our request. In addition, cutoff
scores are contained in an undocumented log file, and examples of linked person records above
and below these cutoffs are not readily available, making it difficult to determine the basis for the
cutoff scores.

The expert matchers were familiar with using the SRD Record Linkage System and could conduct
the computer matching with an incomplete specification by using prior experience and setting
cutoffs by viewing the data as it was being matched. However, relying on matcher expertise in
conducting key operations such as A.C.E. computer matching created unnecessary risk to the
successful completion of the operation and may have left insufficient information to be used in
developing procedures for the next decennial. In the future, the bureau needs to ensure that user
requirements, such as what constitutes a possible match, are clearly understood and that
requirements specifications are complete, unambiguous, clearly communicated, documented, and
testable.

                                                  11
C.      Laptop System Provided Minimal Benefit for PFU Users

Laptops previously used to collect A.C.E. person interview data were provided to field
supervisors to transmit management reports and e-mail messages during PFU. According to the
requirements specification, the laptop was designed as a tool for managing computer-assisted
person interviews in the field. The system included a case management component, a
telecommunication system, a training function, and a field supervisor function, which included
management reporting. During the 1998 dress rehearsal, we reported that the management reports
were not always available on the laptop because of software delays and technical problems and
that management reports had to be faxed or mailed to field supervisors daily.11 As a result, during
the dress rehearsal, the data was outdated and could not be relied on to manage the operation. We
recommended that for future laptop use, management reporting software be corrected and tested
to ensure that accurate and timely information would be available to field managers.

During A.C.E. PFU operations, we asked field supervisors whether the laptop management
reporting problems identified during dress rehearsal had been resolved. Supervisors again stated
that management reports were not useful because they were not timely. Similar to dress rehearsal,
the reports lagged a day or two behind the operation. Given the fast pace of the PFU operation, a
day or two lag in data rendered the reports useless to the supervisors. As a result, many
supervisors kept their own records to track the number of questionnaires completed by
interviewers. In hindsight, headquarters field staff attributed the reporting delay to the time it took
to get the questionnaires shipped from the field to the regional office and then scanned into the
computer for check-in purposes.

Field supervisors were also dissatisfied with the e-mail system. For example, supervisors could
send e-mails only to the regional office and not to one another. In addition, supervisors did not
know how to save messages, and since the laptops did not have printing capability, supervisors
did not have a record that a message had been sent. Headquarters staff explained that the laptops
did not have a traditional e-mail system. Instead, the mail system developed for the laptop was
designed only to allow users to send messages to their regional office.

In the exit conference, senior managers stated their belief that not all user requirements, such as
e-mail, need to be met and noted that the extent to which requirements are fulfilled is a
management decision. While those statements may be accurate, we found that, in providing the
laptops to PFU field staff, the bureau deployed hundreds of laptops that were of minimal use to
field staff managing the PFU operation. Originally, the system was designed as an automated tool
to collect and transmit person interview data, functionality not used for PFU where interviews

        11
           Dress Rehearsal Quality Check Survey Experience Indicates Improvements Needed for 2000 Decennial,
Office of Inspector General, ESD-11449-9-0001, September 1999.

                                                     12
were conducted with pen and paper. Functionality such as traditional e-mail, that would have
made management more efficient, was not on the laptops. Therefore, the laptops did not meet
user needs which implies a questionable use of funds in providing these tools. To improve
management of its operations in the future, the bureau needs to ensure that systems meant to
facilitate operations better satisfy user requirements.


III.	   Use of Automated Tools Facilitated Person Matching,
        but Better Testing, Documentation, and Quality Assurance Needed

The bureau’s use of the computer matcher and a Docuprint system enhanced the efficiency of
bureau matching operations and the printing of PFU questionnaires. Although the computer
matcher was not newly developed software, it was being applied differently and the test plan and
results should have been documented. With respect to the Docuprint system, it appears that errors
occurred in production because of a failure to sufficiently review the accuracy of the printed
questionnaire data after last minute changes to the system.

A.	     Computer Matcher Software Tested but Results Not Documented

Before the 2000 A.C.E., the SRD Record Linkage System had been used in numerous operations,
including quality checks of the 1990 census, and the 1998 dress rehearsal, as well as the
identification of multiple responses submitted by households in the 1998 dress rehearsal and the
2000 decennial. Its accuracy and performance have been documented, and it is viewed as a
reliable software component.12 However, when the SRD Record Linkage System is applied to
specific data, choices have to be made as to how the data is to be grouped for matching, which
fields to match on, and how those fields are to be weighted to determine the match score.13 For
example, the A.C.E. person matching operation required that matching be done in two passes,
with different fields used in each pass, and that special weighting be given to certain types of
matches. Changes such as these made to tailor the matcher to a specific operation should be
tested to ensure that the results meet accuracy and consistency requirements.

DSSD officials told us that they conducted independent testing of the SRD Record Linkage
System by using the new computer match process to match person records from dress rehearsal
and then comparing the results to the final matched results from dress rehearsal. The bureau had
not documented this testing, but clerical matchers responsible for reviewing the A.C.E. match data


        12
         Matthew A. Jaro, Advances in Record-Linkage Methodology as Applied to Matching the 1985 Census of
Tampa, Florida, Journal of American Statistical Association, June 1989.
        13
             User Documentation for the Census SRD Record Linkage System, Bureau of the Census (undated).

                                                        13
during the census clerical matching operation did not report any problems with matcher accuracy.
Nevertheless, we are concerned that the bureau did not have a documented test plan demonstrating
that the test cases used were comprehensive and its results were in agreement with the
requirements. We believe that to diminish risk and ensure optimal accuracy, the bureau should
adopt a formal testing process that includes test plans, a demonstrably comprehensive set of test
cases, and documented results.

B.     Output Not Adequately Reviewed After Changes to Forms Printing Software

For the PFU field operation, a questionnaire was printed at NPC for each household requiring
follow-up. The questionnaire contained pre-filled items that provided household and address
information and was designed to collect additional information about persons for whom the
bureau did not have enough information to determine their Census Day address. The
questionnaire could have up to 12 sections but typically had 5 or 6.

We found that a programming change had been made to the software during production that
resulted in the printing of incorrect data on thousands of questionnaires by the NPC’s Docuprint
system. The programming change was made to the software during the first several days of PFU
questionnaire printing. An unintended side effect of this change caused the software to select and
print the same last name for every person listed on the questionnaire even if they had a different
last name. This error went undetected for four days and affected thousands of questionnaires that
contained multiple people with different last names. The bureau was not able to determine at
what point during the printing process the error occurred or how many forms were affected. The
greatest impact was at the regional level, where the forms were immediately shipped after
printing.

Regional staff in Seattle, Denver, Philadelphia, and Charlotte told us that it took a substantial
amount of time to review every form to ensure that the names were correct before they were sent
out into the field. For example, Charlotte staff lost one day of production while they reviewed
every form. Fortunately, the error only affected the inside sections of the questionnaire and not
the names printed on the rosters on the front cover. Therefore, regional staff were able to use the
last name on the cover to correct the last name inside the questionnaire.

Although this software error caused additional work for the regions and delayed field production,
PFU was completed on schedule. The regional offices stated that, because this error occurred at
the start of PFU, they had time to recover and the NPC clerical matchers who reviewed the data
did not believe that the quality was impacted.

Quality assurance procedures are designed to ensure that output from processes such as the
printing of PFU forms are accurate and complete. Although the bureau had quality assurance


                                                 14

procedures for reviewing questionnaire output, they needed to be more specific on how to verify
that the content was accurate. We believe that the quality assurance procedures should be revised
to include steps that ensure data output is accurate and complete.

IV. PFU Quality Assurance Program Needs to Be Automated

During our review of the PFU operation in the 1998 dress rehearsal, we found that there was no
quality assurance program in place and recommended that such a program be added for the
decennial.14 We commend the bureau for adding a quality assurance process in response to our
recommendation made during the decennial dress rehearsal. During the decennial, we were
informed by bureau personnel that the quality assurance program worked and had caught
interviewers falsifying data on PFU forms. While this program was effective, personnel at the
regional office explained that tracking the quality assurance workload was very paper- and labor-
intensive.

During several phases in the quality assurance program, regional personnel had to manually track
the progress of each questionnaire and hand-carry it from phase to phase. The phases included
selecting questionnaires; determining eligibility; performing telephone quality assurance and, if
necessary, assigning the form to a field quality assurance checker; and when the interview was
completed, sending selected PFU questionnaires to NPC for processing and interview worksheets
to headquarters.

The process was tedious because the outcome for each phase had to be recorded, the questionnaire
and quality assurance interview worksheet had to be placed back into an envelope, and then the
envelope had to be put into the appropriate bin for pickup by the next phase. Regional personnel
believed that the overall flow was too segmented and that some phases could have been
combined.

Because the PFU quality assurance operation was added after the 1998 dress rehearsal, there was
no time to operationally test it before the decennial. In addition, bureau officials told us that the
PFU operation was intended to be conducted by a computer-assisted person interview system
similar to the person interview operation, but the bureau decided during dress rehearsal that not
enough resources were available to develop and appropriately test this system for PFU. As a
result, the bureau then made the decision to use the Docuprint system for PFU. For 2010, we
believe that quality assurance should be integrated as part of an automated PFU operation.




        14
           Dress Rehearsal Quality Check Survey Experience Indicates Improvements Needed for 2000 Decennial,
Office of Inspector General, ESD-11449-9-0001, September 1999.

                                                     15
                                   RECOMMENDATIONS

We recommend that the Acting Director of the Census Bureau direct senior management
responsible for evaluating the current A.C.E. and planning the quality check of the 2010 census to
take the necessary actions to:

1. 	   Evaluate whether residents of retirement homes were systemically omitted from the
       A.C.E. independent sample and if so, what impact this had on estimates of the elderly
       population.

       In its response, the bureau stated that all A.C.E. evaluations requiring field work had been
       completed and that additional evaluation work to satisfy this recommendation would be
       difficult because such housing units were not characterized as being retirement homes in
       the census data. Furthermore, two years after Census Day, residents may no longer live in
       the housing units in question. The bureau also stated that it is considering including group
       quarters in the coverage measurement survey for Census 2010, which should reduce the
       potential for error caused by confusing housing units with group quarters.

       We maintain that not knowing how much missed coverage of retirement homes impacted
       this population’s net undercount calculation diminishes confidence in the A.C.E. results
       for this population. Even without additional field work, analyzing the results of matching
       the P-sample and E-sample to identify high concentrations of elderly within A.C.E.
       clusters that were not matched in the P-sample would indicate whether this omission was
       systemic. Without such a determination, the bureau cannot determine the validity of its
       estimates of populations of the elderly.

2. 	   Ensure that definitions for housing unit, special place, and group quarters, as well as
       any other definitions, as appropriate, are consistent for both the census and the
       A.C.E.

       The bureau agreed with this recommendation.

3. 	   Document and clearly communicate requirements when planning systems that have
       to meet requirements of both the census and the A.C.E.

       In its response, the bureau stated that a very tight schedule after the Supreme Court’s
       decision on the use of sampling for producing the apportionment counts made it difficult
       to document and communicate requirements for systems supporting both the census and
       the A.C.E.


                                                16

       We believe that documenting and communicating these requirements would have largely
       been the same task with or without sampling.

4.	    Ensure that computer matching requirements are fully developed and documented.

       In its response, the bureau claims that the automated matching requirements were fully
       developed and understood by those who conducted this operation.

       We believe that the criteria for including records as possible matches were ambiguous
       because setting the lower cutoff was not completely specified or documented.

5. 	   Ensure that computer systems are developed and modified in accordance with
       rigorous, documented system and software engineering standards that, at a
       minimum, address requirements specification, design and development, testing,
       documentation, and quality assurance.

       The bureau cited its response for the third and the fourth recommendations.

       We are asking the bureau to do more than improve requirements definition— the bureau
       needs to improve all phases of its system and software engineering processes.

6.	    Integrate the PFU quality assurance process as part of an automated PFU operation
       to ensure efficiency.

       The bureau agreed with this recommendation for the 2010 census.




                                               17

                                   APPENDIX A
                                Terms and Acronyms

A.C.E.                   Accuracy and Coverage Evaluation
DSCMO                    Decennial Systems and Contracts Management Office
DSSD                     Decennial Statistical Studies Division
Dual system estimation   The estimation methodology used for the A.C.E. that uses a
                         geographic sample of block clusters to find persons missed by the
                         census and other errors in the census
E-sample                 Includes persons enumerated by the census in housing units from
                         the A.C.E. block clusters
Group quarters           Special places where occupants share certain residential facilities,
                         such as a cafeteria, and include dormitories, nursing homes,
                         orphanages, prisons, and halfway houses
HCUF                     Hundred-percent Census Unedited File, a computer file containing
                         the results of the decennial census
Housing unit             A house, an apartment, a group of rooms, or a single room whose
                         occupants live separately from other persons and have direct access
                         from the outside of the building or through a common or public hall
Local census office      520 temporary Census Bureau offices established for Census 2000
                         data collection purposes
NPC                      National Processing Center, Jeffersonville, Indiana
OIG                      Office of Inspector General
P-sample                 Person records collected during A.C.E. independently of the census
PFU                      Person follow-up, an A.C.E. operation resolving unmatched E-
                         sample persons
Special places           A place containing one or more group quarters where people live or
                         stay, such as, a college or university, nursing home, hospital, prison,
                         hotel, migrant and seasonal farm worker camp, or military
                         installation or ship
SRD                      Statistical Research Division
